<html>
<title> - THE PRESIDENT'S PROPOSED FY 2007 BUDGET FOR THE DHS: THE OFFICE OF INTELLIGENCE AND ANALYSIS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                    THE PRESIDENT'S PROPOSED FY 2007
                   BUDGET FOR THE DHS: THE OFFICE OF
                       INTELLIGENCE AND ANALYSIS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
           INFORMATION SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2006

                               __________

                           Serial No. 109-63

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                     U.S. GOVERNMENT PRINTING OFFICE

36-401 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT



                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Mark E. Souder, Indiana              Loretta Sanchez, California
Daniel E. Lungren, California        Jane Harman, California
Jim Gibbons, Nevada                  Nita M. Lowey, New York
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)

                                  (II)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut, and Chairman, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment:
  Oral Statement.................................................     2
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Rpresentative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4
The Honorable Jane Harman, a Representative in Congress From the 
  State of California:
  Oral Statement.................................................    12
  Prepared Statement.............................................    12
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texase:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
The Honorable Ginny Brown-Waite, a Representative in Congress 
  from the State of Florida......................................    15

                               WITNESSES

Mr. Charlie E. Allen, Chief Intelligence Officer, U.S. Department 
  of Homeland Security...........................................     4

Accompanied by:
Ms. Mary V. Connell, Deputy Assistant Secretary for Intelligence 
  and Analysis, U.S. Department of Homeland Security.............    11


                    THE PRESIDENT'S PROPOSED FY 2007



        BUDGET FOR DHS: THE OFFICE OF INTELLIGENCE AND ANALYSIS

                              ----------                              


                      Wednesday, February 15, 2006

              U.S.House of Representatives,
                    Committee on Homeland Security,
                  Subcommittee on Intelligence, Information
                    Sharing, and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:10 p.m., in 
Room 311, Cannon House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons, Brown-Waite, Lofgren, 
Thompson, Harman, and Jackson-Lee.
    Mr. Simmons. [Presiding.] We meet today in open session 
following a classified briefing to receive testimony on the 
budget request of the Office of Intelligence and Analysis, or 
I&A, for fiscal year 2007 and to discuss the plan of the 
department's chief intelligence officer, Mr. Allen, who is here 
with us today.
    Members are reminded, at least those members who 
participated in the closed briefing, not to raise specific 
questions on budgetary issues that would fall within the 
classified domain.
    The Department of Homeland Security's Information Analysis 
and Infrastructure Protection Directorate was divided up during 
the department's second-stage review last year. The Office of 
Information Analysis became the Office of Intelligence and 
Analysis and became a direct report to the secretary.
    The I&A account funds the chief intelligence officer and is 
a part of the larger analysis and operations account. The 
Office of Intelligence and Analysis accounts for less than 1 
percent of the DHS budget but provides a vital service to the 
department and to our nation.
    By bringing together the intelligence elements of the 
department and fusing that information with information from 
state, local, tribal and private-sector partners, I&A plays a 
unique role in our nation's intelligence community.
    It must continue to strengthen that role and better 
integrate those elements into the department and into the 
broader intelligence community.
    And we are interested to know, Mr. Allen, how your budget 
will accomplish this.
    I&A must also focus on improving the analysis and sharing 
of terrorist threat information and sharing that intelligence 
provided to DHS partners is timely, relevant and useful.
    The most usable information will come in an unclassified 
form, which is often a challenge for the intelligence 
community. Not only is it against the culture of the community, 
classified information is often difficult to declassify and 
share.
    And so I would suggest that the department needs to do a 
better job working with the Open Source Center, both 
contributing to the work of the center and utilizing the 
center's product. Open source information by its very nature is 
unclassified, although open source intelligence may be lightly 
classified, therefore lending itself to rapid dissemination.
    And finally, Mr. Allen, we would like to thank you for your 
work, for your distinguished career. You have many challenges 
ahead of you in building the DHS intelligence strategic 
enterprise, and I look forward to continuing to work with you 
to help ensure that I&A has the resources and capabilities it 
needs to accomplish its vital mission.
    And I would yield now to the ranking minority member of the 
subcommittee, the gentlelady from California, Ms. Lofgren, for 
any opening statement she would like to make.
    Ms. Lofgren. As you know, Mr. Chairman, I am losing my 
voice, so I will put my whole statement into the record.
    I would just note that Mr. Allen has been here a short time 
and I think in that short time has made some important strides 
forward for the department.
    Although I think he is not prepared to comment at this 
time, I am mindful of the testimony of Richard Ben-Veniste in 
October pointing out that whoever writes the check gets the 
most attention.
    So at the appropriate time, I look forward to Mr. Allen's 
comment about budgetary authority and the like. I know that he 
is enmeshed in a information architecture program, which I am 
pleased to hear.
    I neglected to ask when I met with him earlier whether the 
analysis will include what is available in an off-the-shelf 
capacity, as compared to a designed-for-specification capacity. 
And I do not know if he is prepared to answer that today or 
not, so we will find out as time goes by.
    I will just say that I think this is an important component 
of our efforts to keep our country secure. I have mentioned to 
Mr. Allen both in public and in private the need to make sure 
that we respect civil liberties of Americans as we move 
forward, and I have been constantly reassured by Mr. Allen of 
his strong commitment to that. And for that, I am grateful.
    And I would yield back.

                             For the Record

            Prepared Statement of the Honorable Zoe Lofgren

    Thank you Chairman Simmons, and welcome back Mr. Allen. I am 
pleased to see you again. I await your report regarding your progress 
in shaping the Office of Intelligence and Analysis, and how the mission 
you set for it last fall is coming together.
    Today's hearing includes both an open and closed session. Thank you 
for answering our questions in the closed session. Your answers have 
provided us with information that helps us greatly in understanding 
many of the challenges you are facing. I look forward to being able to 
ask you many questions in our public sessions about your operations.
    I remain concerned that the President's FY 2007 budget may not 
provide you with the funding you believe you need to make your office 
successful in the fight to defend our nation. I am hopeful that there 
are questions that you will be able to answer publicly about how your 
budget matches up with your priorities. I also look forward to hearing 
about any new initiatives that you have undertaken since last we met.
    When you testified last fall, you had been on the job only a few 
weeks. You shared with us many of your priorities and what you believed 
the mission of the Office of Intelligence and Analysis to be.
    At the time, I said I welcomed the Second Stage Review as it 
related to the Department's intelligence function because it 
represented an opportunity to start anew. This was especially important 
because--as we all know--the Administration had stripped the Office of 
Information Analysis of its central role in intelligence assessment 
shortly after its creation, leaving the Department without a clear 
intelligence mission.
    Mr. Allen, your testimony last fall convinced me that you had found 
a clear and compelling mission for the Department and I was happy to 
have someone with your abilities and extensive experience in this 
important position.
    At the same time, I emphasized with you that the Committee needed 
specifics--specifics about your authorities as Chief Intelligence 
Office and your roles and responsibilities regarding the various 
intelligence units falling under the DHS umbrella. I noted that in 
order to drive a common intelligence analysis mission, you needed to 
ensure that everyone at the Department was on the same page.
    I am pleased to see that just two weeks ago, Secretary Chertoff 
took a major step in the right direction by signing a 10-page 
Intelligence Integration and Management Directive that spelled out in 
specific terms your authorities to integrate and manage the 
Department's intelligence programs.
    You will be happy to know, Mr. Allen, that in the words of one 
intelligence expert, that the directive looks like the work ``of a very 
seasoned bureaucratic infighter--someone who knows how to write the 
rules to establish and protect the powers of the [Chief Intelligence 
Officer] position.'' This expert also noted that while it is ``always a 
challenge when a new position is created that is responsible for trying 
to bring together diverse pieces of a function spread across a large 
agency,'' that this directive at least gives you a fighting change.
    I think that time will tell whether or not your having budgetary 
authority would enhance your ability to succeed in your position. I am 
mindful of the testimony of former 9/11 Commissioner Richard Ben-
Veniste stated during our second panel in October, when he said, 
``Whoever writes the check gets the most attention.''
    As we discussed in October, Mr. Allen, I am also greatly concerned 
that your goal of program integration will never be fully achieved 
without some kind of commonality of databases through which information 
can be shared internally within the Department.
    Those common databases must, of course, include appropriate privacy 
safeguards. As we have discussed, civil liberties and privacy 
protections can and must be built into the technology. I am pleased to 
know that you are committed to supporting the privacy laws of our 
nation as they pertain to the information that the Department may 
develop, how or if that information is retained and how that 
information is to be disposed of when it no longer has any value.
    I am curious to know if you believe that there is currently off-
the-shelf -the-Shelf technology that you can use that will meets your 
needs. If these technologies do not exist, I know that you will 
identify what you need and then be willing to fight to get it. Our 
subcommittee wants you to have these necessary these tools and 
technologies you need to succeed. I look forward to hearing your candid 
assessment of your current capabilities well as your future needs.
    In October, you stated that the Department ``obviously'' must do a 
better job of building interoperable and interconnected databases, and 
that you would have a much better idea in ``six months'' of how those 
databases were developing.
    We're two months shy of the six-month mark, but I hope you can shed 
some light on the work that your office is doing in this area either 
during the open or closed session today.
    In addition, I look forward to you addressing how the Office of 
Intelligence and Analysis is working to overcome the information 
sharing challenges tat continue to plague the dialogue between the 
Federal government on the one hand and its state, local, and tribal 
homeland security partners on the other.
    I wonder what impact the vacancy in the Program Manager position of 
the Information Sharing Environment is having or what impact you 
believe it will have on the work you do.
    Mr. Allen, thank you for your commitment to helping to secure our 
homeland, I look forward to working with you and hearing your testimony 
today.

    Mr. Simmons. I thank the gentlelady.
    I notice that we are joined by the distinguished ranking 
member of the full committee, and I would like to extend to him 
the courtesy of making an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. And I, 
too, will submit a statement for the record.
    But I would like to again say to Mr. Allen I appreciate his 
outreach that he has done to committee members and the 
community at large. It is a very positive step. You have a very 
sensitive job to do. It is absolutely one that I could find no 
one better to do it than yourself.
    There are a couple of things that concern me. I have public 
officials who say, from an intelligence standpoint, ``How can 
we get information in real-time through a system rather than 
seeing it on TV?''
    And I think you are aware of one of the statements; the 
mayor of Los Angeles indicated concern.
    The other situation is, I was a little dismayed by the 
departure of Mr. Rusak, a good person. And I hope, for whatever 
the reasons, his departure, we will not let it be the problem 
for the next person. We absolutely need to make sure we keep 
these people and give them the resources necessary to do the 
job.
    But other than that, the issue on diversity that you have 
indicated you will be stepping forward on within the department 
is real positive. And I look forward to working with you on 
that.
    I will yield back, Mr. Chairman.
    Mr. Simmons. I thank the gentleman for his comments.
    The chairman now recognizes Mr. Charlie Allen, chief 
intelligence officer of the Department of Homeland Security, to 
testify.
    And we look forward to hearing this afternoon on a broad 
range of issues that you bring to the job, improvements you 
have made, and whether or not you feel that the budget that you 
have submitted is adequate to accomplish the mission.
    Surely, homeland security is one of the most important 
things that we can do. Intelligence gives us that early warning 
we need to protect our country and our fellow citizens.
    And I recognize you, Mr. Allen. We look forward to your 
statement.

  STATEMENT OF CHARLIE ALLEN, CHIEF INTELLIGENCE OFFICE, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Thank you, Chairman Simmons, Ranking Minority 
Member Lofgren, and Ranking Member of the full committee 
Thompson.
    It is a pleasure to be here. I am very grateful that you 
are holding this hearing.
    The overriding theme that is reflected in our fiscal year 
2007 budget is a need for unity and integration of DHS 
intelligence. And there is the direction in which I am headed.
    I would like to introduce for all concerned my new 
leadership team. I have my principal deputy assistant secretary 
here, Mr. Jack Tomarchio; my deputy assistant secretary for 
intelligence and analysis, Dr. Mary Connell; my deputy 
assistant secretary for mission integration, Mr. Tom Faust; my 
director of plans and integration, Mr. Jim Chaparro; my chief 
of staff, Mr. James Beagles; and my director of finance and 
budget, Mr. John Hill.
    Four months ago, I identified five priorities that I would 
need to address in order to carry out the secretary's vision 
for an integrated DHS intelligence enterprise. And I brought 
them here to your committee on the 19th of October.
    My first priority, I told you, was to improve the quality 
of intelligence. We are beginning to broaden the scope of our 
intelligence analysis. We continue to focus on terrorist 
threats to the homeland, but our analysis must encompass all 
aspects of the security of the homeland, including border 
security, the phenomenon of radicalization, and critical 
infrastructure vulnerabilities.
    To support this broader function, my office has established 
several cross-division working groups and is developing an 
intelligence campaign plan to address border security.
    Moreover, we have put new emphasis on reaching out to other 
elements of the department. On radicalization, we are working 
with the Department of Homeland Security's office of policy, as 
well as science and technology and the civil liberties office, 
in order to develop a deeper understanding of the roots of the 
phenomenon of radicalization.
    On chemical, biological, radiological and nuclear issues, 
we are partnering with science and technology to leverage the 
office's research for its intelligence value.
    Another new and significant effort that my office is 
pursuing is open source. I view my office as a lynchpin for 
providing and managing open source information for the 
department. Our plan for acquiring, handling and disseminating 
open source information is straightforward, efficient and 
effective.
    Proven methods of obtaining open source data exists, and we 
intend to leverage current activities in the department, as 
well as in the open source programs of other agencies, 
including the UDNI Open Source Center, as well as the 
commercial sector.
    The efficient handling of information is critical to DHS 
providing our nation the insight, guidance and warning needed 
to ensure we are prepared to handle threats to our security and 
positioned to respond effectively when required.
    We are taking a number of enhancements and new initiative 
in this area, including the development of an intelligence 
enterprise information architecture that Congresswoman Lofgren 
referred to.
    Fiscal year 2007 resources will be critical to an 
aggressive path that we must have, a system that provides 
information to those that need it, when they need it, and will 
thusly facilitate a sharing and collaborating information 
environment that is critical to our mission.
    Our information technology investment we are requesting in 
fiscal year 2007 will allow my office to establish an urgently 
needed capability for retrieving, handling, using and storing 
information.
    My second priority is building a unified culture among DHS 
intelligence components. Last month, Secretary Chertoff signed 
a management directive which formally established me as the 
chief intelligence officer of the department and provided me 
with the authorities that I need to lead, integrate and manage 
DHS intelligence programs.
    This management directive also formalizes my chairmanship 
of the Homeland Security Intelligence Council, which I 
established upon my arrival at DHS to serve as my principal 
decisionmaking forum for the intelligence issues, issues of 
department-wide significance.
    This forum participants include the chiefs of DHS 
intelligence elements within the components, as well as key 
members of my leadership team. Working with the Homeland 
Security Intelligence Council--plans an integration division, 
develop comprehensive DHS intelligence enterprise strategic 
plan, which articulates our vision, mission goals and 
objectives and sets a context for intelligence activities.
    And I understand you all have copies of this strategic 
plan, which I signed out.
    Our strategic plan envisions a purely operational training 
and educational system within the next 2 years that will serve 
as a vital piece of our efforts to improve intelligence 
analysis. A companion to our training plan is our effort to 
recruit the best and the brightest from the nation's 
universities.
    We already have begun implementing our new recruiting plan 
and are reaching out to the universities and joining in job 
fairs, as I speak.
    We have received more than 90 applications for our 2006 
summer intern program, a strong indication that the best and 
the brightest young Americans across the United States want to 
help serve their country and keep it safe.
    My office has also been working diligently to build a 
workforce at all levels. We finished the last fiscal year with 
98 percent of our civil service positions filled. We have 
stepped up recruitment and are taking it to new levels with the 
development of our recruitment strategy.
    Most of the new positions in the fiscal year 2007 budget 
proposal are related to integration of the DHS intelligence 
enterprise and integration with our state, local and private-
sector partners.
    My third priority is providing stronger support to state, 
local and private-sector customers. As you know, one of the 
initiatives that I have sponsored from the moment I entered is 
to be able to share information down to the state and local 
levels.
    One of our ongoing initiatives in this area is the 
placement on intelligence representatives in New York and Los 
Angeles. And more broadly, my office is leading a major DHS 
effort to plan for and ultimately deploy officers to more than 
30 state and local fusion centers throughout the country.
    Sharing information with our state and local partners is of 
the highest priority for my office. Every product produced by 
my office is reviewed with an eye toward sharing that with 
state and local authorities.
    These products are shared with the state and local 
customers via an e-mail distribution and posting system on the 
Homeland Security Information Network. We also have a 
classified network so that we can share actually classified 
information down at the state and local level and out to the 50 
homeland security advisers.
    My fourth initiative is, of course, taking my place as a 
full member at the national intelligence community. As I told 
you this morning, I was with Ambassador Negroponte and other 
leaders of the community briefing the Defense Subcommittee of 
the House Appropriations Committee.
    And let me say that Ambassador Negroponte has reached out 
to homeland security and to me, and we work as full partners on 
counterterrorism issues.
    I am also working very closely with Admiral Scott Redd, who 
heads the National Counterterrorism Center. We have a very 
smooth and close operation.
    Our partnership with the FBI continues to be strong. We 
reach out daily to the bureau at all levels and work closely on 
a broad range of threats.
    Finally, our experts are helping the DNI to meet the 
objectives of his national intelligence strategy by ensuring 
that we have an integrated DHS intelligence enterprise to 
address threats broadly to the homeland.
    Because of our unique information holdings in the domains 
of the border, transportation and maritime security, our strong 
and growing relationships with state and local authorities and 
the private sector, and as statutory obligations to defend the 
homeland against terrorism, intelligence analysis has to be one 
of the cornerstones of this integrated capability.
    Finally, on my 19 October statement to you, I said I would 
work and reach out to the Congress and provide transparency in 
all of my actions. I have made repeated trips to the Hill, and 
I have met frequently with your staff members. And I intend to 
continue to do the same.
    I have tried to convey to you my personal sense of urgency 
about the mission that we all share: preventing another 
catastrophic attack on the United States. The budget that we 
have submitted to you for your review reflects the same 
urgency.
    We need the full president's budget in order to accomplish 
our goals. With your strong support, DHS intelligence can do 
its part to achieve this goal of protecting the country.
    Thank you very much. I request that my classified statement 
be retained in your records.
    I am ready to answer your questions.
    Mr. Simmons. Without objection, so ordered.
    And members who attended the classified briefing may, in 
fact, have questions that they want to submit for the record, 
which will be done.
    The classified statement is at the secret level and is not 
available to the public, but it is available to members of the 
subcommittee and of the committee, and will be held by 
committee staff.
    Let me ask a general question. First of all, as I recall, 
the percentage increase of the overall budget was 18 percent. 
And yet the total budget as a component of the total Department 
of Homeland Security is only 1 percent, which is a relatively 
small figure.
    And the challenges that you face in homeland security 
intelligence I consider to be substantial. You have to fuse 
information. You have to cooperate and coordinate with state, 
and local, and tribal actors.
    You have mentioned your interest in supporting open source 
intelligence, which goes into the issue of data mining. A lot 
of these concepts have been discussed for some time.
    But now for the first time we have an agency of the U.S. 
government that is charged with performing these tasks in an 
environment where traditional bureaucracies may or may not be 
supportive, the old issue of bureaucratic politics.
    How successful do you feel that you have been thus far? And 
what is your vision for this year in expending these dollars 
and in meeting these non-traditional goals of data mining, 
collecting information from open sources, doing analysis for 
open sources, working with state, local and tribal entities, 
information-sharing, and so and so forth?
    Mr. Allen. Chairman Simmons, you have asked a very large 
question. Trying to work across traditional bureaucracies, 
particularly bureaucracies that existed in other departments or 
as independent elements, is going to be extremely challenging, 
because the operating components of the Department of Homeland 
Security have a great tradition.
    They do wonderful work on a daily basis. They have not 
necessarily always kept strong intelligence elements within 
them.
    We are going to--one, I have an agreement that we will 
submit--the secretary, when he submits his integrated budget 
guidance out to all the components, as well as to all other 
elements of homeland security. We will be emphasizing the need 
for all elements to strengthen their intelligence capabilities.
    There are about nine elements within the operating 
components that have intelligence or intelligence-collection 
activities. Some are very strong, like the United States Coast 
Guard, as you know. Others are less strong.
    And for fiscal year 2008 through 2012, I would expect to 
see some of those who have less than robust efforts to increase 
their capabilities as they make their budget proposals back to 
the secretary.
    So we are beginning to use my management directive as chief 
intelligence officer to begin exchanging some of this 
information.
    But how we are going to continue to improve analysis: get 
more out of our analysts that we have today, deploy officers to 
state fusion centers, as well as handle such charges as open 
source.
    We are also, as you know, as Dr. Connell explained in 
closed session, we are going to deploy some analysts out to the 
operating components in order to harvest the information they 
have collected.
    It is going to be a very challenging time, and we are going 
to be extremely pressed. But we will live within the budget 
that we requested.
    Mr. Simmons. How doe we attract people who want to work for 
Homeland Security, not people who want to work for the CIA, or 
people who want for the Defense Intelligence Agency, or people 
who want to work for the FBI.
    No disrespect to those entities, but, you know, this is a 
new culture, a new challenge, a new mission, a new task. And 
these folks have to have some sense that there is a future in 
this, that, as they dedicate their time and their talent to the 
task of securing the homeland and working in homeland 
intelligence, that they will be respected as professionals and 
that they will have an opportunity to advance, as opposed to 
simply being assigned to homeland security for a couple of 
years and then moving on to some other assignment.
    How do you address that challenge?
    Mr. Allen. That is an extraordinarily difficult challenge, 
because, as you know, some of the other more traditional 
intelligence agencies are having difficult retaining their 
analysts for a sustained period.
    Some of the turnover rates in some agencies is very 
alarming. Actually, our turnover rate in my own office right 
now is very small, and I am very pleased about that.
    But we do not have enough entry-level analysts. And for 
that reason, we, as you know, as we said in closed session, we 
have developed a recruitment strategy to go out and to actually 
pursue the best and the brightest out in universities.
    We are going to be visiting a number of universities across 
the country. We are going to be going to job fairs. We are 
advertising in ``Foreign Affairs'' and ``Foreign Policy'' for 
people to make homeland security intelligence analysis a 
career.
    A career, these days, is probably--if you can keep them for 
10 to 15 years, you are doing very well. Training is one of the 
things that we have lacked.
    We have now an extensive plan to do training and improve 
not only the quality of our analysts we have today, but we are 
going to reach out to CIA University. We are going to reach out 
to the National Joint Military Intelligence College.
    And we are also going to reach out the Federal Law 
Enforcement Training Center, which will be adding some courses 
on counterterrorism, which I think is very important.
    I think one of the things we can offer to these young 
analysts is that we will want some of them to rotate out and be 
analysts in ICE, in CBP and TSA, where they can get a broader 
appreciation of how intelligence will serve law enforcement in 
more operational areas.
    I think there is some very exciting prospects for young 
analysts to work and to have a varied career, to work with the 
operating components, then come back and work for the DHS 
central office of intelligence analysis.
    That is my vision, and I am going to try to implement it.
    Mr. Simmons. Thank you very much.
    The Chair now recognizes the distinguished ranking member, 
Ms. Lofgren, of California.
    Ms. Lofgren. Thank you very much.
    We had a chance to ask many of our questions earlier. But I 
am just wondering if you could describe for all of us, 
including the public, the results of the IAIP being divided up 
and the creation of your office, the new responsibilities and 
costs that you did not have before this second-stage review, 
and how you are covering these new responsibilities.
    Mr. Allen. That is a very strong question and a very good 
question, because we have to operate on our own. We were 
understaffed when we broke apart, which I think was the right 
thing for Secretary Chertoff to do, because we did not have the 
logistics or the support.
    We did not have the SCIF facilities, the facilities that 
were secure for handling classified information. We still lack 
appropriate facilities for all of our officers. Not all of our 
officers have workstations or terminals; they have to sort of 
share their terminals, and this makes life very difficult.
    But we now have a plan to finish those facilities, to fit 
out particularly Building 19. We will probably have to put some 
analysts who are working on more strategic intelligence 
analysis off in SCIF's place elsewhere, outside the Nebraska 
Avenue complex.
    And then to begin to build the kind of information 
technology that did not exist is a pretty awesome thing.
    That was one of the first things Deputy Secretary Jackson 
told me the third day I was on the job, is that you do not have 
an information system. You do not know your information flows. 
Work carefully with the CIO of DHS, but you are going to have 
to develop your own information management system, working with 
the CIO, and that is where we embarked.
    So there was a whole plethora of new problems that we faced 
immediately, once we were broken apart. And the challenges are 
still there and very steep.
    Ms. Lofgren. Now, let me ask you, on the--well, Congressman 
Lungren and I call it the hit rack. Everybody else calls it 
HITRAC--map these domestic vulnerabilities to terrorist threats 
and works and to secure critical infrastructure with that 
knowledge.
    Now, this sounds exactly like what the IAIP was originally 
supposed to do. How is your mission different from that 
original mission?
    Sometimes I feel like a nag talking about this--but the 
lack of progress, or at least the perceived lack of progress, 
in the publication of the domestic critical infrastructure 
vulnerability assessments is of concern.
    And I am wondering, you know, who is doing that now? What 
guidance are they getting? And how has that limited, if at all, 
your capacity to accomplish your mission?
    Mr. Allen. Thank you, Congresswoman. That is a very good 
question, because the HITRAC concept, I think, is a brilliant 
concept. I think we owe a lot to Tom Faust, who was one of the 
pioneers in helping establish the HITRAC concept.
    And when we split apart, putting the two apart, does this 
create a seam in our ability to analyze and conduct terrorist 
threat assessments against our critical infrastructure? There 
are 17 sectors out there.
    I have Dr. Mary Connell, who is the deputy assistant 
secretary for intelligence, here. She manages the HITRAC 
program as part of her overall responsibilities, and she will 
briefly speak to the HITRAC program and how we are continuing 
to sustain it and grow it.
    I would appreciate it.
    Ms. Connell. We realize how critical HITRAC is--
    Mr. Simmons. Dr. Connell, for the record, could you spell 
your name, just for the record?
    Ms. Connell. It is Connell, C-O-N-N-E-L-L.
    Mr. Simmons. Thank you.
    Ms. Connell. We realize how critical HITRAC is, because 
that is really a unique mission that we perform at the 
department.
    What I have done is pull it out--it had been a branch and a 
division. And since it is a center, I have pulled it out. And 
we are treating is as more or less a joint program office. It 
is responsible to me and to Bob Stephan in infrastructure 
protection.
    So it will stand on its own because of what you are talking 
about, Congresswoman. We need to do those sector vulnerability 
assessments. They are under way, and we are doing those.
    And I think we are doing them in a unique way, in that we 
have the sector specialists there from I.P. And we have 
intelligence analysts from I&A focusing on the threat.
    What I am also doing, in addition to the sector 
assessments, is I think there is a lot more intel value that we 
can get out of HITRAC. And so I have emphasized to the analysts 
that we need to focus on what intelligence products we can do, 
as well, for the intelligence community and also for state, and 
local, and private.
    They have also started--
    Ms. Lofgren. I am going to try and understand what you mean 
by that. Can you explain that?
    Ms. Connell. Yes. Right now, the intelligence community 
does not do a lot of product on sector security or threats to 
sectors. The threats are treated more as networks or people.
    And I think a missing component there is look at the 
threats to the private sector, and that is something, analysis 
we can--
    Ms. Lofgren. Oh, I see.
    Ms. Connell. Yes. We are also making sure that we give more 
product back to the private sector. So we are writing more 
unclassified information for them and having more dialogue with 
them.
    Ms. Lofgren. I know my time is up, but if I could just do 
one quick follow-up.
    It seemed to me that when we were putting together our 
threats to critical infrastructure vulnerability assessment and 
list that, as it evolved over time, and it was--the product was 
poor. I mean, everyone knew that.
    Part of the problem was that, number one, the mission was 
mixed. And there was an effort to list everything--well, if you 
get solid information that a Safeway store is going to be--
well, you want to know where all the Safeways are. But it is 
not one of your critical infrastructure.
    And so both items were on the list. And really, the last 
time I looked--and it is only been, I think, about 6 weeks, or 
maybe it is improved since the last time I was briefed--but 
there were big chunks that were just not present and 
inexplicably so.
    And the putting together of this list was deficient because 
it did not include the private sector in any way.
    Have you been able to impact that process at all through 
the process you are describing?
    That does not make any sense to you. I can see by the look 
on your face.
    Mr. Allen. Well, we are working across all 17 sectors. And 
Dr. Connell has 30 officers sitting, and a few of them are 
contractors, too, helping work with this. And we are working 
our way through a huge series right now.
    We are working sector by sector. And as a threat arrives, 
we will do this. For example, we are looking at the chemical 
sector. We are looking at the energy sector. And we are doing 
special analyses.
    There is, however, in--Colonel Bob Stephan is under Dr. 
Stephan. And I am not sure I can answer it. The list is kept by 
him. I will take another look at that, and take it back, and 
get your response.
    Ms. Lofgren. Well, I appreciate the time. It is just if you 
are going to be using that as the map for what needs to be 
protected and it is not really yet formulated, my concern is 
you will not have what is necessary as the baseline.
    Ms. Connell. We are also putting more emphasis on looking 
at the sectors themselves and having--
    Ms. Lofgren. You are directly, out of your outfit?
    Ms. Connell. Yes, having the sector drive the analysis, 
rather than vulnerabilities in general or threats in general.
    Ms. Lofgren. Maybe what I should do is ask you to come in 
and spend 40 minutes with me and go through what you are doing, 
so I have?
    Mr. Allen. We will do that, and we will do that with 
Colonel Bob Stephan's officers, as well.
    Ms. Lofgren. Thank you. I appreciate it.
    Mr. Allen. Thank you, Congresswoman.
    Mr. Simmons. Thank you.
    The Chair recognizes the distinguished ranking member of 
the House Permanent Select Committee on Intelligence, Ms. 
Harman from California.
    Ms. Harman. Thank you, Mr. Chairman.
    I want to apologize to our witness for missing the closed 
session, but there was just absolutely no way I could change 
another commitment. And I will catch up with the material 
either in person or through my work on the House Intelligence 
Committee.
    I do want to say some things for the public record. First, 
I have found the floor statement I made when Charlie Allen 
retired from nearly 50 years at the CIA, and I would like to 
quote it in part and ask unanimous consent to put it in the 
record of this hearing.

                             For the Record

            Prepared Statement of the Honorable Jane Harman

    Ms. Harman. I thank the chairman for yielding to me. Charlie Allen 
is as close as you can come to a legend in the intelligence community. 
Before the intelligence reform bill passed last year, he was one of the 
few senior intelligence officers who could get 15 disparate agencies to 
function as a community. He did that mainly through sheer force of 
personality.
    Our Nation collects intelligence through a variety of means, from 
spies on the ground to satellites overhead, and everything in between. 
In his capacity as the assistant director for collection, Charlie got 
the collectors to understand that they were most effective when they 
worked together as a team against the hardest targets.
    He got them to understand that integrated collection strategies 
yielded the best outcomes. Under Charlie's leadership, the collectors 
in the intelligence community have scored some truly impressive 
victories, and it is unfortunate that these cannot be recounted in 
public.
    I will just tell you that Charlie's service to the Nation was made 
clear to me the day he told the committee that he had been with the CIA 
for nearly 50 years. That is an astounding record, and it is certainly 
appropriate as we close debate on what I think is one of the best 
authorization bills ever, that we recognize Charlie's service to our 
Nation.
    Congressional Record for June 21, 2005 on page H4850

    Mr. Simmons. Without objection, it is so ordered.
    Ms. Harman. Here goes. ``Charlie Allen is as close as you 
can come to a legend in the intelligence community. Before the 
intelligence reform bill passed last year, he was one of the 
few senior intelligence officers who could get 15 disparate 
agencies to function as a community. He did that mainly through 
sheer force of personality.''
    While, Mr. Chairman and Madam Ranking Member, we have given 
Charlie a few better tools now, so we expect even better 
results. And I do not want him to feel any pressure, but I 
think he is the best thing that has come into the homeland 
world, at least as I see it.
    And I want to be absolutely sure, Charlie, that this 
committee and the intelligence committees are giving you what 
you need to be successful.
    When we had our first session with Homeland Security 
Secretary Chertoff, he mentioned the intelligence function as 
one of the small list of functions he thought absolutely 
critical; I agree. And until you showed up, it was on life 
support.
    So in that vein, I just want to ask you about a couple of 
things.
    First of all, as I mentioned, you, through force of 
personality, built an intelligence community where the 
organization chart was lacking. Now you are part of the DNI 
structure.
    And I would like to know how you function in that structure 
and whether there is anything else you need from us to be the 
kind of player that the homeland security intel officer must 
be?
    Mr. Allen. Thank you very much, Congresswoman, for your 
comments.
    Working within the DNI structure, there are still issues to 
be sorted through. One of the things that we are doing is 
ensuring that, when we do get threat information, that we 
have--discontinuity among the National Counterterrorism Center, 
the FBI, and my own office.
    We have to make sure that that also stretches down to the 
local levels, to the homeland security advisers. And the FBI 
must ensure it also stretches down to its joint terrorism task 
forces.
    There has been issues in the past where this has not worked 
as easily as it should. And there are also, as you know, some 
ambiguities in the Homeland Security Act and in the 
Intelligence Reform Act which add, sometimes, over how 
information can flow down to state and local governments.
    I think we are working our way through this. Director 
Mueller, as you know, has spoken to this and believes that we 
serve somewhat separate sets of customers at the state and 
local level but that, if we work together, we can do this.
    As one of the things that obviously we have to do with the 
DNI is to provide him support on homeland security issues. As I 
said in my--we are offering some of our positions and people to 
the National Counterterrorism Center in order to strengthen 
Scott Redd's overall analytic efforts.
    I think it is a work in process, but thus far we are being 
able to work our way through all bumps in the road.
    Ms. Harman. Well, I appreciate that answer. And, again, 
through sheer force of personality, you can cut through a lot 
of stovepipes.
    I do want to cut into one other area before the light goes 
red and that is support to state and local intelligence 
functions. You mentioned it yourself.
    I am aware that you have been out to Los Angeles at least 
once and going back soon. I am also aware, as you said, that 
you have an officer out there full time, which I appreciate.
    Perhaps you want to tell this committee--you may have done 
it earlier in a setting in the closed briefing--about this new 
JRIC concept and which fusion centers at the local level, and 
then the linking up between those fusion centers will give you 
an added homeland capability, give not just you, give all of us 
an added homeland capability that is so critical.
    And just, you know, the last piece of that is, what other 
help do you need?
    And let me close, because my light is going to go on, just 
with my urging to you to treat us as your partners not as your 
adversaries. We are here to help, and you add so much 
capability to the homeland department, and you have a 
collaborative working style. So please call on us for help.
    Mr. Allen. Thank you, Congresswoman. I will certainly do 
that.
    Working and sharing information with the fusion centers--
and California being so large will have four fusion centers, 
and we will put officers, I hope, at all four eventually, 
certainly starting in Los Angeles, because being able to 
collect locally, and provide that information, and have 
officers there to immediately be alerted to any threat 
information or any type of activity that could cause a 
difficulty to the homeland is very vital.
    Meanwhile, we can share information down. Already we are 
using the officer in Los Angeles. We are on the phone with him. 
We are sending him messages, so he can convey to senior members 
of the Los Angeles Police Department, as well as the homeland 
security adviser up to the governor in Sacramento, threat 
information, to be able to filter it, assess it.
    That makes a big difference. So from my perspective, this 
regional fusion center is going to make a big difference.
    I have a principal deputy, Mr. Jack Tomarchio, behind me, 
who is spending most of his time on the road meeting with 
people. I feel there is enormous eagerness out there to share 
information.
    And we have to be able to share information at a classified 
level, as well as a sensitive but unclassified level, with 
state and local government.
    And also I am working out with the private sector. And I 
find the same professionalism in the private sector. Out in 
California, there is just some areas in the private sector that 
were--and I must say, they are first-class people.
    And we are giving them some additional security clearances, 
because they need them and they deserve them. It may break 
precedent, but I do not care. We are going to do it.
    Ms. Harman. I love that last answer, especially the end of 
the last answer.
    Thank you, Mr. Chairman.
    Mr. Simmons. The Chair recognizes the gentlewoman from 
Florida, Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman.
    Mr. Allen, I asked some questions before in the closed 
session, and you were very forthright. And I appreciate that.
    I just have one additional question, and that is--and you 
may have answered it; I apologize for coming in late--what 
future role do you expect to take in the Coast Guard 
intelligence budget?
    Mr. Allen. Yes, ma'am.
    In the U.S. Coast Guard intelligence budget, we are now in 
the process--Mr. Jim Chaparro behind me is working to prepare 
guidance, which we will send out through the secretary out to 
the operating components that will address intelligence needs 
and priorities as we see them.
    Part of it will reflect what we believe the secretary needs 
to improve in intelligence, with the operating components, as 
well as the DNI. Ambassador Negroponte has needs, as well.
    So we will provide guidance, and it will go over to 
Commandant Collins, and it will go to the head of Jim Sloan, 
who is a good, personal friend of mine. And he will have to try 
to, as he prepares his fiscal year 2008 through 2012 budgets, 
he will have to reflect how Coast Guard resources will have to 
be allocated and balanced to support what we see as vital 
intelligence needs.
    So we are going to give him programmatic and budgetary 
guidance. But it will be an interactive process. We will work 
directly with Jim Sloan. We will work directly with the 
commandant.
    Mr. Simmons. The gentlelady from Texas, Ms. Jackson-Lee?
    Ms. Jackson-Lee. I thank the chairman very much for this 
hearing.
    And I am going to take a slightly different approach, Mr. 
Allen, from my earlier questions and just focus, as I look at 
the mission of the DHS intelligence and information-sharing 
activities to provide valuable, actionable intelligence and 
intelligence-related information for and among the national 
leadership, all components of DHS, our federal partners, state, 
local, territorial, tribal, private-sector customers.
    We ensure that information is gathered from all relevant 
DHS field operations and is fused with information from other 
members of the intelligence community.
    I might just follow up on Ranking Member Harman's comments 
and just ask whether or not we have such centers being placed 
in state of the Texas.
    You can just answer that. As obviously a member of the 
Homeland Security Committee that is from Texas, I am very 
concerned about threat vulnerabilities there.
    But let me give you a larger question and then tie it in. 
From a threat and analysis perspective, the department 
organization--or what department organization, in your opinion, 
Mr. Allen, is a primary point of contact for, one, the federal 
government, two, the intelligence community, three, state, 
local and tribal communities, and, four, the private sector, 
your office or the Homeland Security Operations Center?
    And depending on your answer, I may have a follow-up 
question to that.

         Prepared Statement of the Honorable Sheila Jackson-Lee

    Thank you Mr. Chairman, and my fellow members of the Committee, and 
to you, Mr. Allen, for appearing before us today.
    I see great potential in the Office of Intelligence and Analysis, 
if it can indeed be a team player, a coalition builder, and a prominent 
stakeholder in the collection and analysis of domestic homeland 
security threats. The President's budget for this year proposes an 
increase of 18% for the funding of the Office of Intelligence and 
Analysis and the Directorate of Operations combined. As the entity 
within the Department of Homeland Security that is responsible for 
unique intelligence analysis, unique information distribution, and 
stakeholder partnerships, I'm optimistic that your department will be 
able to utilize these funds appropriately and successfully.
    My district in Houston is till struggling with the aftermath of the 
hurricanes last year, and everyday I work to get families the resources 
they need to survive, let alone what they may need to rebuild their 
life. Again and again, as we review what went wrong, I turn to the 
communications mechanism, and how the lack of information and knowledge 
prevented our federal government from responding efficiently and 
effectively to the disaster at hand, Consistently over the course of 
those couple of days, federal agents responded slowly, if at all, and 
without meeting the needs of the urgent situation. Just this week, we 
learned of over 10,000 wide-bodied mobile homes sitting empty at Hope 
Municipal Airport in Arkansas. I hope that your office will contribute 
to a streamlined information communications system that can better 
prepare us and protect us from homeland security threats.
    My district and others affected by the hurricanes are vulnerable, 
and I want to support the OIA in any way that I can to ensure that it 
protects us from what we may not even expect.
    I would like to highlight one important element of the purpose of 
your office.You are charged with the task of acting as the primary 
Federal government intelligence information provider on homeland 
security issues to state, local, territorial, and tribal governments. I 
would like to stress to you, and I hope you realize, that you may be 
the most crucial stakeholder in emergency response. Information is your 
commodity, and your trading partners are precisely the entities and 
parts of government that respond first to emergencies, that coordinate 
funding, and that work together for regional response. Our states, 
local governments, and tribal governments are the closest to our 
citizens, and your duty to them must be honored.
    I hope that the discussion today will show that progress has been 
made in structuring and preparing the OIA. I'm looking forward to your 
testimony, Mr. Allen, and thank you again for appearing before this 
committee.

    Mr. Allen. Thank you very much.
    There is a fusion center in Texas, and I believe it is in 
Austin.
    We are certainly visiting all of the homeland security--all 
of the state fusion centers. And certainly, Texas is very much 
on our mind, particularly the Houston area and other areas 
where we feel that we must do a better job of working closely 
with the law enforcement.
    As far as my relationships with the operations directorate, 
the Office of Intelligence and Analysis works very closely. I 
have officers seven by 24 in the Homeland Security Operations 
Center that is run by General Broderick.
    As far as sharing immediate, alerting information, what 
information we would call immediate, tactical warning, and that 
is essentially--sensitive and law enforcement, we look to 
General Broderick to help manage that when it relates to 
threats to the homeland from terrorists.
    When it deals with intelligence analysis, being able to 
evaluate threats, to be able to provide that down to the state 
and local governments or even to the private sector at a 
sensitive, but unclassified, level, I believe that my office is 
responsible for doing that intelligence analysis.
    We are working very closely with General Broderick in 
promoting the homeland security information network. I manage 
the secret level; he manages the more broader, more robust law 
enforcement sharing information.
    We both are looking forward to the day when we can build an 
even more stronger system called the Homeland Security Data 
Network, which will be equivalent to the secret-level Supernet 
run by DOD. But it will be for the homeland, and it will be run 
under civil authority rather than under military authority.
    Ms. Jackson-Lee. And so, as I understand your answer, that 
you break it down topically, meaning that you have contact with 
the federal government, the intelligence community, state, 
local and tribal, private sector on the analysis aspect.
    And then, with respect to the other aspects, you put that 
in the hands of General Broderick. I guess I did not--you broke 
down intelligence analysis. And what would you put in the other 
category?
    Mr. Allen. It is tactical and, particularly, sensitive law 
enforcement information or information relating to natural 
disaster acts of nature where damage is done to our country or 
infrastructure.
    We work primarily with the intelligence community, because 
you move immediately into higher classified intelligence 
channels. It is a partnership with General Broderick, and we 
want to strengthen that partnership.
    Ms. Jackson-Lee. And thank you very much.
    If I might, Mr. Chairman--and I will be making this request 
at every committee level, frankly--and that is that I will be 
asking the full committee, now that the task force work has 
been done on Hurricane Katrina, I will be asking this committee 
to step up to the plate and do its oversight responsibility, 
which would require, I believe, the presence of Secretary 
Chertoff.
    And if I--out jurisdiction, the Subcommittee on 
Intelligence and Information Sharing, there is no doubt, 
whether or not you wish to engage in the blame game, there have 
been a clashing of cultures and a clashing of responsibilities.
    Clearly, the singular moment of former FEMA Director Brown 
during his hearing was where information went and who gave 
information, and he did give information, and the bypassing of 
a structure--and I do not fault him--where he felt he could get 
no relief whatsoever.
    Our committee deals with information sharing. There will be 
subsequent committees coming forward that I will be asking the 
same questions, the Emergency Preparedness Committee.
    And therefore I do not think this is a subcommittee issue; 
it is a full committee issue. And, frankly, we failed in 
information sharing.
    I also would say that--if you would indulge me in 
additional minute, I would ask unanimous consent for an 
additional minute--
    Mr. Simmons. Without objection.
    Ms. Jackson-Lee. --I thank the chairman--that this whole 
pitting of natural disaster and terrorism--and, of course, 
there have been some red lines around that, as to the fact 
that, if the levees had been imploded through a terrorist 
action, and the word went out that it was a terrorist action, 
you would not find the people because there would be so many on 
the ground, boots on the ground, that you could not even find 
the citizens of New Orleans.
    That was not the case. But still, a thousand are dead and 
4,000 are missing. And, frankly, I will just add a high degree 
of frustration to the extent that I am really sick and tired 
that this committee has been hiding from its responsibility of 
oversight on Katrina, hiding behind the existence of a task 
force, or subcommittee, or whatever it is called.
    Let me compliment them for their initial work, but there 
have been no accountability in that report.
    And so, Mr. Chairman, as you convey it to the chairman of 
the full committee, and I will have this banner, if you will, 
and commentary on each committee that I am a subcommittee 
member of, we need to hold immediate oversight hearings that 
has Mr. Chertoff sitting here.
    I welcome the former FEMA director under oath and others, 
because we have no solutions to those problems.
    And as an information sharing, I would commend to you, Mr. 
Chairman, that this subcommittee has added responsibility to 
determine how we can help each other, how we can help this 
nation, by having more effective policies of sharing the right 
kind of information timely so that the American people--can 
have the protection of the federal government, as they should.
    I thank Mr. Allen for his answer to my question. And I am 
sure we will have the opportunity to follow up on some of these 
aspects.
    But I hope you are considering the responsibilities of 
information sharing that may not necessarily be on the grounds 
of intelligence where it is terrorist-based, but certainly 
information sharing is a key element of our mutual 
responsibilities.
    With that, I see my time. I would yield to any respective 
gentleman or lady that wants to comment.
    Mr. Simmons. All time having expired, I would like to do a 
second round, if that is agreeable to my colleagues.
    And what I would like to focus on is the unconventional or 
the non-traditional mission of the Department of Homeland 
Security.
    I mentioned briefly before some of the unconventional 
elements. The distinguished lady from Texas has focused on 
information sharing.
    Traditionally, intelligence officers would share 
information in a pipeline, but not across agencies. 
Traditionally, if you were a federal-level intelligence 
officer, you did not usually share with state, local and 
tribal.
    So we are dealing with new models, new systems to deal with 
new problems, primarily counterterrorism, but perhaps new 
models for dealing with natural disasters.
    One tool in that toolbox, in my opinion, is open source 
intelligence. That is intelligence that is produced as a 
product, like other intelligence products, from the acquisition 
processing and analysis of open or publicly available 
information, or data banks, or sources, whatever they may be.
    It occurs to me that, if there is a news story breaking, 
that homeland security intelligence and analysis can provide 
value added to that breaking news story. And it is very hard 
sometimes to beat the news story.
    If information is coming from nontraditional sources, it 
can perhaps be in the lead form of a tip-off. And that being 
the case, open source intelligence is a discipline, like 
HUMINT, or SIGINT, or IMINT.
    It is a discipline. A discipline needs a home. It is 
probably going to be the open source agency, which is FBIS with 
a new title. But it occurs to me that your organization more 
than many others could benefit from a robust, open source, 
analytical capability.
    Should you not be requesting more personnel in this field 
than you are? Should you not be running them through a vigorous 
open source intelligence training program so that you can 
capitalize on this new capability?
    A week ago, I was over at the NCTC. And I was briefed on 
security operations relative to the Olympics. The open source 
node was leading the other nodes in providing information.
    One person, with language skills and very sophisticated 
computer skills, a very capable individual, was leading the 
team on that subject. Isn't this the sort of thing that is 
going to attract young people into your intelligence 
organization?
    Mr. Allen. Thank you, Chairman Simmons. Absolutely.
    As you may or may not know, I have always been a great 
advocate of open source. And my previous job in working with 
the DCI for 7 years, I am certain I was the most outspoken 
supporter of open source within the broader intelligence 
community.
    I must say that the leadership of the intelligence 
community in the past has not been strong in supporting open 
source. And for that reason, finally with the WMD commission 
and with the 9/11 commission, the incredible value of open 
source is finally being fully recognized.
    DNI Ambassador Negroponte has formed the Open Source 
Center. FBIS is now called--works for Porter Goss, but it is to 
serve in a stronger way the broader interests of the U.S. 
government and U.S. intelligence community.
    I have the beginnings of an open source strategy. My view 
of open source is quite broad. For critical infrastructure 
protection, open source, the data are there.
    Colonel Bob Stephan over in infrastructure protection uses 
open source. And Dr. Connell's officers actually go out and 
talk and get documents from people that run mass transit to 
understand how mass transit really works so we can understand 
how it may be vulnerable or not vulnerable.
    Railroads, subways, what have you, to me, it--
    Mr. Simmons. If you would just suspend for one second--
    Mr. Allen. Yes, sir.
    Mr. Simmons. --on that point, this is an activity that is 
conducted above-board. It does not create any fears among the 
American people that there is a big brother out there. It is 
being done openly with these different sectors.
    Mr. Allen. It is absolutely above-board. It is absolutely 
dealing with factual data. It is not dealing with data relating 
to the privacy of individuals at all.
    It deals with actual operations of critical sectors out 
there, and how they operate, to make sure that we can provide 
guidance and advice on how to make them more secure.
    And as a result of some work that both Colonel Stephan has 
done, our office has done, and we have able to go out and 
advise members in the private sector. We always take our 
partners with the Federal Bureau of Investigation.
    And they say, ``Here is low-hanging fruit. Here are some 
things--based on our just simple analysis of open source, here 
are some things you can take to make yourself less 
vulnerable.''
    That is the way actually things ought to be. And one thing 
that I also believe is important is that--commercial imagery is 
open source. It is there to help our environment. It is there 
to help the Department of Interior, to help preserve land, 
minerals.
    If there are fires, as we had in Oklahoma and Texas, the 
kind of remote sensing capabilities that are out there, 
commercially available, unclassified, I think that kind of 
role--Department of Homeland Security, my office, has a very 
major role.
    And working with the commercial imagery vendors, I think we 
can do a lot more to support that side, as well.
    We are in the early stages. I have charged Dr. Connell with 
developing the open source strategy, and she has brought in a 
world-class consultant to advise her on that.
    Mr. Simmons. Thank you.
    Ms. Lofgren?
    Ms. Lofgren. Just one matter. Thinking about your 
recruitment efforts--and it is daunting, really, to get the 
number of individuals you want recruited in with great minds--I 
am wondering how much support or interface you have had with 
the science and technology division?
    And thinking about the capacity--we had in the organic act 
of creating Homeland Security, 10 university centers that were 
to be established. And I believe we only have--I think it is 
just two of the 10.
    And although we intended that to provide real value, in 
terms of research and the like, it was also hoped that it might 
be a vehicle to bring people into the system, both in your shop 
and other parts.
    What impact has the delay in identifying and standing up 
these centers had on your recruitment? And what do you think it 
will have? Getting all 10 would add some value to you, do you 
think?
    Mr. Allen. On setting up the 10 university centers, I 
think, for Homeland Security, I think that probably had some 
inhibiting factors. I do not know that, however, as far as 
recruiting it in the long term will make a big difference.
    For example, the New York University system is vast. There 
are 64 campuses in the state of New York, as I understand it, 
and virtually all of those campus now have a curriculum on 
homeland security.
    Dr. Connell has been working very closely with Dr. Maureen 
McCarthy, head of the Office of Research and Development, and 
the science and technology director. And I will let her address 
how she believes working with S&T of Homeland Security will 
help in recruiting.
    Ms. Connell. We just started a partnership with S&T's ORD. 
So it is very recent.
    But they get a tremendous--they have tremendous contacts in 
the university community that we could leverage through our 
partnership, of bringing Intel to work with S&T on a whole 
range of issues.
    We have just begun this, but we are focusing on 
radicalization as one. And they have contracts with social 
scientists, or whatever. So in working with them, that gives us 
entree into that university community, that we can leverage. 
And we can do that on other issues, as well.
    Ms. Lofgren. So you really think that the contracting on a 
case-by-case basis might be preferable to these university 
centers that we had in mind?
    Ms. Connell. I cannot address that--
    Ms. Lofgren. Okay, maybe it is not fair to ask you that.
    Ms. Connell. I do see value in what we are doing.
    Ms. Lofgren. Okay.
    Thank you, Mr. Chairman.
    Mr. Simmons. Ms. Jackson-Lee?
    Ms. Jackson-Lee. Again, let me just--I have a question for 
Mr. Allen, but let me just, because I think--I do want to 
restate a question of inquiry, if might yield to you, Mr. 
Chairman.
    Will there be any efforts on behalf of this committee, as 
it relates to its information sharing, to hold hearings, 
specifically as it relates to Katrina and Rita and any other 
natural disaster that would require such more pronounced, 
competent sharing of information than what has occurred during 
the tragedy of Hurricane Katrina?
    Mr. Simmons. Yes, I do not have a copy of our schedule for 
the coming weeks. Information sharing is clearly an important 
responsibility of the Department of Homeland Security. It is a 
capability that obviously we are trying to improve.
    And I cannot speak for the committee; I can only speak for 
the subcommittee. But I would be happy to explore further those 
issues.
    In fact, I am a great believer in getting out into the 
community. What I have tried to do over the last few months is 
schedule meetings on-site with the agencies to discuss in 
detail how they do their job.
    I do not know whether you have been to the Homeland 
Security Operations Center recently. I do not know whether you 
have been at all. But that is certainly a center of focus for 
these types of activities.
    And I would be glad to pursue that with you.
    Ms. Jackson-Lee. Well, I know there were a number of CODELs 
planned that were cancelled, so I am not sure which CODEL you 
were talking about regarding that visit.
    But what I would say is that I think--I appreciate the 
chairman's openness, but I think there needs to be, as you 
review it, a more pronounced statement that we do hold hearings 
on the information sharing, as they have negatively impacted, 
as there is clear evidence on citizens that are still being 
negatively impacted today, who have been harmed by the lack of 
communication or information sharing as it relates to Katrina.
    I would also ask, because you are in the majority--you 
might get--I would also ask that, since you are the majority, I 
would ask that you convey the consternation of at least one 
member that we have yet to have credible hearings on Hurricane 
Katrina on the backdrop of alleging that we are allowing a 
specially appointed committee to do its work.
    Its work is finished. And if in your conversations with 
majority staff and the chairman of this committee, I believe 
that it was imperative that Secretary Chertoff be before this 
committee sooner rather than later.
    We have a week out. And I feel no need to delay any longer 
for his presence before the committee.
    So I am not asking you--your task is not to be a messenger. 
But certainly, by being in the majority, I would ask--I am 
record. And anyone who is able to convey this, because I am 
going to tie a string around my finger, and I am going to be 
the broken record on this committee, of which I have a great 
deal of respect for.
    When I say committee, full committee. At every hearing that 
I am at, I am going to be asking why we have failed to complete 
our responsibility of oversight over the tragedy that is still 
occurring with respect to Hurricane Katrina.
    And I yield to the gentleman if he wants to respond.
    Mr. Simmons. I have never known the gentlelady to fail in 
her ability to communicate her message. I certainly hear it.
    My understanding is the special committee or the special 
task force may be publishing its report shortly. I have not 
seen it yet. I do not know exactly--
    Ms. Jackson-Lee. Today, I believe.
    Mr. Simmons. Is it today? I would be happy to take a look 
at it. And if there are issues in the report that we need to 
take up at a subcommittee level, I would be happy to do that.
    As for sharing with the chairman, I can certainly share the 
message. But I suspect you can be very successful at that, too.
    Ms. Jackson-Lee. I thank you. I know that you and 
Congresswoman Lofgren work very well together. And I want to 
thank her for her leadership and would hope that we could work 
together on these issues.
    Let me quickly say thank you very much--let me just offer 
this question.
    Mr. Allen, you came before us on October 19th and discussed 
terrorist cases of scares involving the New York City subway 
system, as well as the Baltimore Harbor system. And I am sure--
I do not believe this was raised.
    And I want to follow up. You asked about what must be done 
to improve the process for assessing the reliability of 
intelligence reports resolving conflicts among agencies looking 
at the same intelligence and for sharing real-time information 
with local officials.
    Well, we have had some local official questions, but I want 
to pursue it in the line of the backdrop of what you said on 
October 19th.
    You mentioned that the department and the FBI could do a 
better job of coordinating and aligning their different 
missions. And we knew that going into forming DHS, that you 
would be looking at lessons learned and that you would be 
coming back with your proposals.
    I would like to know, and I put the Katrina tragedy in the 
backdrop, but I would like to know where you are in this 
process and what steps have been taken to improve the situation 
that deals with the real-time, if you will, communications and 
the other aspects of your work.
    Mr. Allen. Congresswoman, I am very happy to report that we 
have worked out very strong new procedures. We are working 
directly with the National Counterterrorism Center and the DNI, 
working with the FBI.
    And now that we have begun to deploy people at the state 
and local level, the sharing of threat information and the 
assessing of that is done jointly by the FBI, by my office, and 
by the National Counterterrorism Center, which we view, of 
course, as the first among equals in making the final 
assessments, because that is its role under the law.
    My role, of course, is to ensure that we share that 
information rapidly and quickly down to the state and local 
levels and that we do it to our homeland security advisers, to 
the private sector, to the state fusion centers, that the FBI 
sends the same identical information down to the law 
enforcement, down to its special agents in charge, and then to 
the broader law enforcement community, and that there are no 
differences in those assessments.
    And that, if we have to go out and talk together down at 
the local level, that officers from DHS accompany the FBI, if 
they go out and talk, say, to the private sector, because in 
the 103 joint terrorist task forces there are DHS officers in 
each of those task forces. They are primarily from the 
operating components, like ICE and CBP.
    But we have worked some standard operating procedures that 
should avoid any confusion or mistakes. And I am on the phone, 
or my staff, or Dr. Connell's staff are on the phone instantly 
if we have what we think is a credible report.
    We also are on the phone if we think it does not have 
validity but might be misinterpreted at the state and local 
levels. We are out there giving them filtered, validated 
information.
    Unfortunately, in the past, some of the information became 
direct, and unfiltered, and unassessed, and it was 
misinterpreted, I think, in the case of New York City and 
Baltimore.
    I think we learned some very strong lessons. I certainly 
did. I just arrived. We are doing very well today, I think. It 
does not mean we will not make a mistake in the future, but we 
are doing much better today.
    And there have been a lot of threats that have come in that 
we have handled very quietly, and they have all gone away 
because they lack credibility or they were fabrications.
    Ms. Jackson-Lee. Let me congratulate you and thank you for 
the progress report. I do not know if any place this new 
structure that is not classified is in writing. I would 
certainly like to have a copy of it, just to sort of try to 
understand it.
    And I would just simply say, having listened to sheriffs, 
Mr. Chairman, in another hearing that I understand came from 
the southern border complaining about not getting real-time 
information, I know that we are on the road to progress.
    And hopefully we can find solutions that will be effective, 
both on the national and local levels. Thank you very much.
    Mr. Simmons. Thank you.
    Mr. Allen. We will get you the processes in some form of 
writing.
    Ms. Jackson-Lee. That would be great.
    Mr. Allen. You deserve that.
    Ms. Jackson-Lee. Thank you, sir.
    Mr. Simmons. I thank my colleagues who are participating 
this afternoon.
    I thank you, Mr. Allen, for your testimony and for the 
testimony of your staff.
    I think earlier Ms. Harman expressed the view that we want 
to be supportive, we want to be helpful. We also want 
accountability.
    We want the American people to understand, as best they 
can, what is being done to protect their homeland from the 
various threats that may occur. And we want to keep talking 
about it, because it is something that affects all of us very 
directly and very personally.
    So we thank you for your testimony in this open session, 
and we will take your budget requests under advisement.
    Questions for the record will be submitted, and we look 
forward to working with you in the future.
    Mr. Allen. Thank you, Mr. Chairman.
    Mr. Simmons. The hearing is adjourned.
    [Whereupon, at 4:24 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
